HHS/OIG, Audit - "Review of State Children's Health Insurance Program
Payments in Puerto Rico," (A-02-04-01019)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of State Children's Health Insurance Program Payments in
Puerto Rico," (A-02-04-01019)
December 18, 2007
Complete
Text of Report is available in PDF format (337 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Health Department overstated State
Children's Health Insurance Program (SCHIP)
expenditures on its fiscal year (FY) 2002 CMS 64.21U report by $28,301,865 (Federal share
$18,396,212).  Despite the reporting error, the overstatement did not have a
financial impact on Federal funds.  In addition, contrary to Federal
regulations,
the Health Department retained SCHIP expenditure data for as little as 6
months.  Nothing came to our attention to indicate that improper SCHIP
payments were made because of missing documentation.
We recommended that the Health Department:  (1) reduce expenditures
reported on the FY 2002 CMS
64.21U by $28,301,865 (Federal share $18,396,212), (2) establish procedures
to reconcile SCHIP expenditures on its CMS 64.21U reports to the
Commonwealths Medicaid Development Information System to prevent any future
overstatements, and (3) implement procedures for retaining records that
comply with Federal regulations.  The Health
Department concurred with our findings and recommendations.